<html>
<title> - [H.A.S.C. No. 112-129]TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BILL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-129]

    TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR
        THE FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BILL

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 17, 2012



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]














                      U.S. GOVERNMENT PRINTING OFFICE

  74-470                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>  


















                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jaime Cheshire, Professional Staff Member
                Paul Arcangeli, Minority Staff Director
                     Dustin Walker, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, April 17, 2012, Testimony from Members on Their National 
  Defense Priorities for the Fiscal Year 2013 National Defense 
  Authorization Bill.............................................     1

Appendix:

Tuesday, April 17, 2012..........................................    35
                              ----------                              

                        TUESDAY, APRIL 17, 2012
  TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE 
          FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BILL
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Boren, Hon. Dan, a Representative from Oklahoma..................    11
Chu, Hon. Judy, a Representative from California.................    21
Connolly, Hon. Gerald E., a Representative from Virginia.........     3
Cravaack, Hon. Chip, a Representative from Minnesota.............     9
Crawford, Hon. Eric A. ``Rick,'' a Representative from Arkansas..    30
Davis, Hon. Danny K., a Representative from Illinois.............     8
Graves, Hon. Sam, a Representative from Missouri.................    14
Guthrie, Hon. Brett, a Representative from Kentucky..............    12
Hanna, Hon. Richard L., a Representative from New York...........     2
Herrera Beutler, Hon. Jaime, a Representative from Washington....    23
Holt, Hon. Rush D., a Representative from New Jersey.............     5
Honda, Hon. Michael M., a Representative from California.........    32
Huelskamp, Hon. Tim, a Representative from Kansas................     7
Latham, Hon. Tom, a Representative from Iowa.....................    25
McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Murphy, Hon. Tim, a Representative from Pennsylvania.............    27
Neugebauer, Hon. Randy, a Representative from Texas..............    15
Pierluisi, Hon. Pedro R., a Resident Commissioner from Puerto 
  Rico...........................................................    19
Stivers, Hon. Steve, a Representative from Ohio..................    32
Walsh, Hon. Joe, a Representative from Illinois..................    17

                                APPENDIX

Prepared Statements:

    Altmire, Hon. Jason, a Representative from Pennsylvania......    84
    Boren, Hon. Dan..............................................    79
    Chu, Hon. Judy...............................................    88
    Cravaack, Hon. Chip..........................................    95
    Crawford, Hon. Eric A. ``Rick''..............................    98
    Davis, Hon. Danny K..........................................    46
    Dent, Hon. Charles W., a Representative from Pennsylvania....    80
    Farr, Hon. Sam, a Representative from California.............    42
    Fitzpatrick, Hon. Michael E., a Representative from 
      Pennsylvania...............................................    91
    Gowdy, Hon. Trey, a Representative from South Carolina.......   107
    Graves, Hon. Sam.............................................    51
    Guthrie, Hon. Brett..........................................    86
    Hanna, Hon. Richard L........................................   108
    Herrera Beutler, Hon. Jaime..................................   109
    Holt, Hon. Rush D............................................    48
    Honda, Hon. Michael M........................................    55
    Huelskamp, Hon. Tim..........................................   111
    Kinzinger, Hon. Adam, a Representative from Illinois.........   123
    Latham, Hon. Tom.............................................    43
    McKeon, Hon. Howard P. ``Buck''..............................    39
    McMorris Rodgers, Hon. Cathy, a Representative from 
      California.................................................    82
    Mulvaney, Hon. Mick, a Representative from South Carolina....   124
    Murphy, Hon. Tim.............................................    57
    Neugebauer, Hon. Randy.......................................    77
    Petri, Hon. Thomas E., a Representative from Wisconsin.......    41
    Pierluisi, Hon. Pedro R......................................   129
    Stivers, Hon. Steve..........................................   126
    Stutzman, Hon. Marlin A., a Representative from Indiana......    90
    Walsh, Hon. Joe..............................................   127

Documents Submitted for the Record:

    Genitourinary Trauma in the Military, Department of Defense 
      Report to Congress, submitted by Hon. Brett Guthrie........   135
    H.R. 3985, the Building Better Business Partnerships Act of 
      2012, submitted by Hon. Judy Chu...........................   144

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
  TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE 
          FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BILL

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, April 17, 2012.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning. The House Armed Services Committee meets 
today to receive testimony from Members of Congress on their 
national defense priorities for the fiscal year 2013 National 
Defense Authorization Act [NDAA].
    As we begin the process of crafting our legislation it is 
essential that this committee seek input from all Members of 
the House to better enable us to fulfill Congress' Article I, 
Section 8 constitutional mandate to provide for the common 
defense.
    We all share the responsibility to provide the best 
possible resources for our warfighters, and we look forward to 
hearing from this group of our fellow Members of Congress on 
their proposals for how best to carry out our mandate.
    A quick note on our format for today--in consultation with 
the ranking member, we will depart from our regular questioning 
process. Each witness will have 5 minutes to testify, followed 
by a 5-minute round of clarifying questions from the committee.
    Members of the committee may seek recognition by raised 
hand and will be granted 2 minutes apiece, up to the 5-minute 
limit. This will ensure we can hear from all our witnesses 
today in a timely fashion.
    As this hearing is intended to be a listening session, it 
is not my intent to engage in extended debate or colloquy with 
our witnesses. We look forward to today's testimony and thank 
the participating Members for the advocacy on behalf of our 
troops.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]
    Mr. Smith. Thank you, Mr. Chairman. I have no opening 
statement. I look forward to the testimony from the witnesses.
    The Chairman. We now recognize the gentleman from New York 
for 5 minutes, Representative Richard Hanna.

 STATEMENT OF HON. RICHARD L. HANNA, A REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Hanna. Thank you, Chairman and Ranking Member Smith. 
Appreciate it. Good morning.
    As you work through the 2013 National Defense Authorization 
Act, I am here to request the committee provide sufficient 
funding for our 21st century defense initiatives.
    The 2013 Department of Defense [DOD] budget proposed by the 
Administration does not provide ample funding for cybersecurity 
defenses or advanced research projects. Such proposals are 
essential to our maintaining our technological edge. They have 
been unreasonably cut in the Administration's budget proposal.
    If the Department of Defense budget figures remain, key 
program areas that are vital to our Nation's infrastructure 
would be vastly undercut. For example, over $1 billion in 
funding would be cut from the Air Force's total funding levels 
for research, development, test and evaluation programs.
    Of greater concern are the 17 percent cuts that the Air 
Force's science and technology cyber fund would face. There are 
many agencies that would be adversely affected as a result of 
these unwise cuts. Some of these agencies include STRATCOM 
[U.S. Strategic Command], the Air Force's Air Combat Command 
and intelligence agencies, including National Security Agency 
and the Defense Intelligence Agency.
    These cuts hurt the ability of our agencies to act and 
leverage on external funding. This would multiply the damage 
done to our ability to maintain the technology edge that our 
forces demand and deserve.
    I have seen the type of innovative projects that are being 
worked on by Air Force research laboratories, such as Rome 
Labs, New York. For example, Rome Labs was the first to 
initiate computer network attack and exploitation as a formal 
science discipline. Rome Lab is also a leader in command and 
control operations, reverse engineering, and several other next 
generation science and technology advancements.
    Our economy, our armed services, our daily lives are 
dependent on accessibility to safe information technology. We 
must protect our networks by providing the funding levels 
necessary to do just that. The National Defense Authorization 
Act presents the best opportunity to show that we understand 
the value of these programs.
    I believe that we run risk of falling behind if this 
Administration's budget figures stand.
    I know that our national security and the importance of 
prioritizing our information technology and cyber defense 
programs are recognized by the members of this committee. It is 
my hope that these programs will be provided with sufficient 
funding levels that they require to keep us ahead.
    Therefore, I would like to formally ask my colleagues on 
the committee to review the Air Force Research Lab Information 
Directorate programs in order to provide fair and realistic 
funding for our Nation's 21st century cyber defenses within the 
fiscal year 2013 National Defense Authorization Act.
    Thank you for your consideration and thank you for your 
time.
    [The prepared statement of Mr. Hanna can be found in the 
Appendix on page 108.]
    The Chairman. Thank you very much. And your comments are 
very timely. We, as we go through this budget, have major cuts 
in the defense budget. $487 billion, roughly, was the amount 
that we are dealing with as we go through the budget process, 
and then, when the sequestration hits, that is another $500 
billion or $600 billion over the next 10 years. So it is going 
to be devastating to many programs.
    Next week, we have several bills on the floor dealing with 
cyber, and I think today there is a briefing for the Members of 
Congress that I would encourage all Members to attend, because 
this is a very, very important issue. And we will definitely 
give every consideration we can as we go through the drafting 
of the bill to take into account the things that you have 
mentioned.
    Mr. Hanna. Thank you, Chairman McKeon.
    The Chairman. Anyone else wish to--any questions or 
comments?
    Thank you very much.
    We will now recognize the gentleman from Virginia, Mr. 
Gerry Connolly, for 5 minutes.

  STATEMENT OF HON. GERALD E. CONNOLLY, A REPRESENTATIVE FROM 
                            VIRGINIA

    Mr. Connolly. Thank you, Mr. Chairman and Ranking Member 
Mr. Smith and distinguished members of the committee. Your 
committee's annual work on the NDAA is a model of bipartisan 
inclusivity. We should strive to follow that more often in 
Congress. I appreciate the committee's ongoing commitment to 
providing essential support services and the equipment for the 
men and women who served in our Armed Forces and their 
families.
    The committee has also consistently fostered a strong 
partnership with the defense industrial base, which supports 
the services and equipment on which our troops and families 
rely.
    Thanks for considering my language to implement a pilot 
program for growing small businesses, sometimes referred to as 
``mid-tier,'' which have outgrown their size standard. I also 
appreciate the consideration of the committee of language to 
ensure that size standards promulgated by the Small Business 
Administration [SBA] accurately reflect industry profiles and 
promote small business growth.
    These proposals address concerns your committee identified 
through the Shuster-Larsen Panel on Business Challenges Within 
the Defense Industry. In addition, I look forward to 
opportunities to improve energy security for the armed 
services, building on your leadership to address this critical 
issue.
    As part of the committee's efforts to strengthen the 
industrial base, Congressmen Shuster and Larsen led the panel 
on business challenges, which highlights challenges small 
businesses can face when contracting within the Defense 
Department. As the report on that panel recognized, growing 
small businesses are being squeezed out of contracts to the 
detriment of the industrial base.
    In order to strengthen the industrial base and protect 
small business competition, I have had the privilege of working 
with a bipartisan group of Members to address the challenge 
faced by those small businesses which have outgrown their size 
standard. Congressman Mike Rogers of Alabama and I participated 
in a hearing recently convened by Chairman Graves in the Small 
Business Committee to discuss these very challenges.
    We heard testimony that many successful military and 
civilian contractors outgrow their size standards under the 
North American industrial classification system. As a result of 
their not having adequate resources to compete with larger 
contractors, they often wind up with the untenable choice of 
either selling their company or, frankly, going out of 
business.
    As the Center for Strategic and International Studies 
documented, this market dynamic has led to declining market 
share for growing small businesses, which leads to decreased 
competition and a weaker industrial base.
    Conversely, if we ensure that growing small businesses have 
a chance to compete, then we will strengthen our industrial 
base and protect taxpayers by increasing the number of 
contractors who can bid on projects.
    Chairman Graves, Congressman Mike Rogers and I developed 
bipartisan language to implement a pilot program to allow small 
businesses that have outgrown their size standard. This program 
protects investments we have made through the 8(a) service-
disabled, veteran-owned small businesses and other small 
programs. It creates a new level of consideration for 
competition among these mid-tier or growing small businesses 
before a project is put up for consideration by the general 
contracting community.
    The bipartisan language will strengthen the industrial 
base, while promoting competition, and I thank you for 
considering our language in the base text of the NDAA. I may 
add, Mr. Chairman, a number of members of this committee have 
been cooperating on that, and I know Mr. West and his staff 
have been working with us on this language as well.
    I also appreciate the consideration of bipartisan language 
to ensure that Small Business Administration size standards are 
accurate, based on legislation Congressman Joe Walsh of 
Illinois and I introduced. As you know, the SBA is required to 
update the code size standards regularly to reflect changing 
conditions in different industrial sectors. Unfortunately, in 
the past, their administratively promulgated size standards 
have been inaccurate.
    For example, SBA inexplicably issued a size standard for 
architectural and engineering firms which deemed 98 percent of 
all firms to be small. This size standard effectively negated 
small business incentives by including very large businesses in 
the grouping. There is a difference between an architectural 
firm and an engineering firm.
    By incorporating the legislation Congressman Walsh and I 
introduced, you would ensure that the SBA size standards are 
based on real market conditions. Like the language on growing 
small businesses, this provision would strengthen our 
industrial base by promoting competition and small business 
growth. It marries recommendations 2.2 from the Shuster-Larsen 
report.
    Finally, I look forward to working with you to build on 
your committee's past achievements to promote energy security. 
You, Mr. Chairman, and the ranking member and your staffs, have 
led the way in creating an Assistant Secretary of Defense for 
Operational Energy Plans and Programs, and in developing 
numerous provisions to improve the flexibility and lethality of 
our armed services.
    Thanks to your leadership, we have reduced our 
vulnerabilities related to fuel convoys, improved the agility 
and security of forward-operating bases, and saved taxpayer 
money in the process.
    I thank you and your staff for your bipartisan approach and 
I thank you for this opportunity to testify before the 
committee.
    The Chairman. Well, thank you for your kind comments, and 
this has been an ongoing problem that we have dealt with for a 
number of years on trying to open up the opportunities for 
small business. And we will, of course, take into consideration 
your comments and the other Members that are working on this as 
we go through writing the bill.
    So thank you very much.
    Mr. Connolly. I thank you, Mr. Chairman.
    The Chairman. Keep in touch----
    Mr. Connolly. I will.
    The Chairman [continuing]. And help us through the process. 
Thank you.
    Mr. Connolly. Thank you so much.
    The Chairman. We now recognize the gentleman from New 
Jersey, Mr. Rush Holt, for 5 minutes.

   STATEMENT OF HON. RUSH D. HOLT, A REPRESENTATIVE FROM NEW 
                             JERSEY

    Mr. Holt. I would like to make four points if I may, 
beginning with the scandal at the Dover Port Mortuary.
    About a year after Sergeant First Class Scott Smith was 
killed by an IED [improvised explosive device] in Iraq in 2006, 
his wife, my constituent, Lynn Smith, learned that not all of 
his remains had been included in his funeral. After years of 
her persistent questioning, she learned from a military 
official that her husband's additional remains had been 
cremated, mixed with medical waste, and unceremoniously sent to 
a Virginia landfill.
    About a year ago, his widow asked me to help her find out 
whether other soldiers had suffered her husband's fate. After 
months of delay, the Pentagon finally revealed that at least 
274 soldiers were desecrated in this way. Because of 
whistleblowers at Dover, what we now know that--and what Lynn 
Smith discovered--was only one of many scandalous acts of 
desecration of the remains of our fallen.
    Since last fall, through additional letters and meetings 
with senior Pentagon officials, I have continued to press for 
the release of all relevant information on this matter and for 
real reforms so we can prevent these outrages from ever being 
repeated. I anticipate that my own investigation of these 
incidents will continue for some time.
    However, one thing has become clear. Our military families 
are not sufficiently integrated into the decisionmaking 
processes of casualty notifications and remains dispositions. 
The services appear to be resistant to our suggestions that 
civilians, including families, clergy and civic leaders, be 
included in an influential advisory committee.
    I believe it is important that this committee include 
directive language in the NDAA requiring the Pentagon to create 
an OSD [Office of the Secretary of Defense]-level Family 
Mortuary Affairs Advisory Committee. Multiple military reviews 
over the last decade gave ample opportunity for these practices 
at Dover to be exposed, to be challenged, to be stopped. They 
clearly were inconsistent with public standards of morality and 
decency, but they were not stopped.
    Existing Pentagon advisory boards do not provide the kind 
of forum necessary for ensuring that these ideas and 
suggestions and concerns of bereaved family members make their 
way to the Secretary. A directive from your committee would be 
very helpful.
    I also ask the committee to conduct an aggressive, probing 
oversight investigation of what happened at Dover. We now know 
the panel chaired by General Abizaid did not conduct nearly as 
comprehensive an examination of the problems at Dover as the 
situation warrants.
    Until the full scope of what happened at Dover is brought 
to light and appropriate remedial and disciplinary action 
taken, the public and our military families cannot have the 
confidence that this episode and these episodes will not be 
repeated in the future.
    Second, I would like to revisit an issue that we have 
discussed before and that is on all of our minds, and that is 
the epidemic of suicide among our service members and veterans. 
I want to thank you and my other colleagues for your support in 
last year's defense and military affairs and construction 
appropriations bills, each of which contained $20 million in 
increased funding for suicide prevention.
    Besides conducting oversight to ensure that the funds are 
spent effectively, another oversight task I think requires 
urgent attention. One of the great problems in preventing 
suicide is the hand-off, the transfer of separating service 
members from the DOD to the VA [U.S. Department of Veterans 
Affairs], particularly those who were Individual Ready 
Reservists or individual mobilization augmentees or inactive 
Guard members. The veterans in these three categories are 
unknown to the VA.
    The VA has told me and has told the press that they have no 
easy way of tracking down and reaching out to these veterans. 
Recently, I learned that an IRR [Individual Ready Reserve] 
airman who had separated from the 514th Air Mobility Wing at 
Joint Base McGuire-Dix subsequently took her life. It is 
exactly those kinds of service members and veterans about whom 
I am most concerned. Determining their location and status is 
an urgent matter that the committee should address to ensure 
that we prevent other casualties from occurring, so I ask your 
help in that.
    The Chairman. The gentleman's time has expired.
    If you could give us the other items that you wanted for 
the record, we will for sure look into these----
    Mr. Holt. I appreciate that. I would like to talk about the 
National Foreign Language Coordination Council and finally 
about the constitutional matter of indefinite detention of 
American citizens.
    I thank you very much for your time and would be happy to 
work with you on all of these issues.
    [The prepared statement of Mr. Holt can be found in the 
Appendix on page 48.]
    The Chairman. Thank you very much.
    We now recognize the gentleman from Kansas, Mr. Tim 
Huelskamp, for 5 minutes.

 STATEMENT OF HON. TIM HUELSKAMP, A REPRESENTATIVE FROM KANSAS

    Mr. Huelskamp. Thank you, Mr. Chairman and members of the 
committee. Ranking Member Smith, thank you for the opportunity, 
allowing me to come and testify. Inviting Members not on this 
committee to present their ideas and thoughts about the next 
defense authorization bill is a great reflection of the open 
Congress that the Speaker has promoted, so I am glad to join 
you here today.
    And I am here to respectfully request that my bill, H.R. 
3828, the Military Religious Freedom Protection Act, be 
included as a part of the fiscal year 2013 NDAA.
    The bill does two things, very simply. Number one, it 
ensures the right of conscience for everyone in the military to 
express their deeply held religious or moral beliefs regarding 
homosexual behavior. And number two, it prohibits the use of 
military facilities for the performing of same-sex ceremonies.
    The new training documents issued after the repeal of 
``Don't Ask, Don't Tell'' require full endorsement of 
homosexual behavior. It says, and I quote from the document, 
``Our leadership and personal commitment to implementation must 
be visible and unequivocal.''
    No one is permitted to speak out against the new policies 
or homosexual behavior in general. There are several reports of 
situations where service members have been punished for saying 
anything negative even in private conversations.
    I know one story where one chaplain was threatened with 
early retirement and then was moved to an assignment where he 
could, quote--``be supervised'' because he merely forwarded an 
e-mail to his subordinates that was a thought reflection on the 
military's former ``Don't Ask, Don't Tell'' policy. And there 
are numerous other examples we can provide to the committee.
    Memos issued by the Department of Defense are attempting, 
in my opinion, to do an end-around the Defense of Marriage Act 
by permitting chaplains to perform same-sex marriages and 
allowing DOD facilities to be used for same-sex ceremonies. My 
bill would help restore compliance with both the spirit and the 
letter of our Defense of Marriage Act.
    This bill, Mr. Chairman, has over 45 cosponsors today, 
including several members of this committee, for which I am 
thankful, and has been endorsed by more than 40 outside groups 
including the Chaplain's Alliance for Religious Liberty, the 
Alliance Defense Fund, and the National Organization for 
Marriage.
    Again, I thank you for the opportunity to testify today, 
Mr. Chairman, and I welcome any questions the committee might 
have.
    [The prepared statement of Mr. Huelskamp can be found in 
the Appendix on page 111.]
    The Chairman. Thank you very much.
    Anyone have questions?
    Okay, then we will of course look at this and as we go 
through the process keep in touch with us and we will work 
through it.
    We now recognize the gentleman from Illinois, Danny Davis, 
for 5 minutes.

    STATEMENT OF HON. DANNY K. DAVIS, A REPRESENTATIVE FROM 
                            ILLINOIS

    Mr. Davis. Thank you Chairman McKeon and Ranking Member 
Smith for allowing me to testify in support of a language 
request to establish a partnership to support the work of the 
National Museum of Health and Medicine to expand its operations 
to satellite museum campuses around the country.
    The authorizing language request before the committee will 
amend title 10, United States Code, to authorize the 
establishment of a nonprofit organization to support the 
National Museum of Health and Medicine.
    The purpose of the foundation is, one, to carry out medical 
research and education projects under the cooperative 
arrangements with the museum; secondly, to serve as a focus for 
the interchange between military and civilian medical 
personnel; and thirdly, to encourage the participation of the 
medical, dental, nursing, veterinary, and other biomedical 
sciences in the work of the foundation and the museum for the 
mutual benefit of military and civilian medicine.
    The establishment of the foundation and its subsequent 
activities are planned to be funded entirely through private 
donations at no cost to the Federal Government.
    The bill is necessary to formalize the relationship between 
the National Museum of Health and Medicine [NMHM], a Department 
of Defense museum established in 1862, sited in Silver Springs, 
Maryland, and a new non-partisan not-for-profit foundation 
which has been established to work with and support the museum 
in its research and educational missions, and to expand the 
Nation's access to current and cutting-edge information which 
will foster better understanding of the past, present, and 
future of health and medicine across the United States.
    The legislation will also facilitate the relationship 
between the NMHM and a new, cutting-edge branch museum located 
in Chicago, which will become the first of a series of 
privately funded satellite locations across the Nation. These 
satellite museums will collectively form the central online 
repository for the DC museum's digital collections, archives, 
and computational resources, and, as such, will help the DC 
museum share its extensive collections digitally with a much 
broader audience. This mutually beneficial relationship will 
also provide the DC museum with regional anchors to a broader 
across-the-country audience and access to non-governmental 
source of support outside of the Capital.
    The museum will feature interactive exhibits where visitors 
can explore biomedical information in new ways. It will also 
act as a home for a team of information scientists who will 
advance the museum's research initiatives.
    In the area of education, the museum would create an online 
community for student, parents, educators, and others to 
explore health science information while interacting with 
others in social networks formed across the topics in the 
health and medical sciences.
    For clinicians, the museum will provide an environment for 
social networking within knowledge-based affinity groups among 
health care workers globally. It will also give health care 
workers a powerful interactive online interface to the museum's 
vast historical repositories.
    The National Museum of Health and Medicine satellite museum 
programs represents a synergistic coverage of efforts to 
advance the state-of-the-art in several areas: science 
education, museum design, information science, technology 
innovation, community outreach, and human health.
    We are currently working with the House Armed Services 
Committee staff and the Department of Defense to get an 
official response to the support of the satellite museum 
project.
    In addition, Chicago was chosen as a site due to its vast 
medical district consisting of 3 teaching hospitals and over 20 
full-service and safety-net hospitals. You will be pleased to 
know that we don't anticipate any cost to the taxpayer, and are 
working with CBO [Congressional Budget Office] for 
verification.
    Again, Mr. Chairman, we thank you for your time, and would 
be pleased to respond to any inquires.
    [The prepared statement of Mr. Davis can be found in the 
Appendix on page 46.]
    Mr. Miller [presiding]. Mr. Davis, thank you very much for 
your testimony. We will take your proposal into consideration 
as proceedings continue forward with drafting our authorization 
bill. Does any committee member have any questions of Mr. 
Davis?
    Mr. Smith?
    The witness is dismissed.
    Thank you very much.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Miller. Next I would like to recognize the gentleman 
from Minnesota, Mr. Cravaack.
    You are recognized for 5 minutes.

    STATEMENT OF HON. CHIP CRAVAACK, A REPRESENTATIVE FROM 
                           MINNESOTA

    Mr. Cravaack. Thank you very much. I would like to thank 
Chairman McKeon, and also I would like to thank Ranking Member 
Smith for holding today's important legislative hearing.
    And I thank the committee for kindly allowing the Members 
of Congress to testify on our national defense priorities of 
fiscal year 2013 National Defense Authorization Act.
    Mr. Chairman, the national defense issue that I would like 
to bring to your attention today pertains to NORAD's [North 
American Aerospace Defense Command] proposed reduction of the 
24-hour alert mission requirement of two aerospace control 
alert [ACA] sites in the continental United States.
    It is my understanding that the proposal was submitted in 
line with the President's budget request for fiscal year 2013 
and the U.S. Air Force decision to make future structure 
changes. The 148th Fighter Wing of Minnesota's Air National 
Guard, known as the Bulldogs, operates out of Duluth, 
Minnesota, is one of the two proposed ACA sites to have its 24-
hour alert mission eliminated.
    I think we can all agree that the ACA mission plays a 
crucial role in defending the sovereignty of the United States 
airspace. In fact, the Bulldogs have performed this mission to 
the highest degree protecting our Nation from air threats that 
date back before the terrorist attacks on September 11, 2001.
    For its noteworthy contributions, the 148th was selected 
for the Raytheon trophy, formally known as the Hughes trophy, 
which is awarded for outstanding performance of an Air National 
Guard fighter unit within the mission of our air defense.
    In fact, the director of the Air National Guard, Air Force 
Lieutenant General Harry M. Wyatt III, announced just this week 
that the 148th Fighter Wing was selected for the 2012 Air Force 
Association Outstanding Air National Guard Flying Unit.
    Therefore, I have great concerns that narrowing the mission 
of a unit nationally recognized for its high performance leaves 
our Nation more vulnerable to attack. Specifically, there will 
be virtually no U.S. armed force protection for our country's 
northern border between Madison, Wisconsin, and Portland, 
Oregon.
    My greater concern, however, is that the proposed decision 
will reduce the 24-hour alert mission to these two ACA sites 
was based on analysis that could not adequately balance risk 
with target budgeted reductions. Military commanders were 
forced to make painful decisions that jeopardized the military 
readiness responding to what I consider draconian budget cuts.
    These cuts have and will directly affect our national 
security and the security of our citizens. In January 2012 the 
GAO [Government Accountability Office] produced a report 
titled, ``Homeland Defense: Continued Action Needed to Improve 
Management of Air Sovereignty Alert Operations,'' that reviewed 
NORAD's 2010 analysis on whether it could change the number and 
location of its fighter sites without affecting the military's 
ability to defend the country against airborne attack.
    This report found that NORAD did ``not identify the 
potential cost savings that could result from eliminating a 
given number of sites.'' This finding, among others, led GAO to 
conclude that ``should NORAD, DOD, or Congress consider 
modifying the number and location of ACA sites in the future, 
without an analysis that balances both risk and cost, decision 
makers will be unable to fully make informed decisions about 
whether the potential cost savings (or increase) warrants the 
corresponding increase (or decrease) in risk.''
    I recognize that our country's current fiscal reality 
necessitates the Department of Defense to look for efficiencies 
and tightens its belt and look for ways to do more with less. 
However, I think it is imperative that these decisions that 
directly affect our Nation's ability to defend itself should be 
made on the basis of risk management principles that balance 
risk and cost.
    Therefore, I support the NDAA draft language that Mr. 
LoBiondo has been working on with the committee with the direct 
Secretary of the Defense to maintain at our Nation's existing 
18 ACA sites until the Secretary submits a report that shows a 
cost benefit analysis and risk based assessment on how future 
ACA changes would affect the DOD budget and force structure.
    Thank you again to Chairman McKeon, Ranking Member Smith, 
and all members of this distinguished committee for allowing me 
the opportunity to testify before you today on my concerns 
regarding this critical piece of our Nation's defense system.
    And I and my staff stand ready to assist your committee in 
maintaining the constitutional mandate of maintaining our 
country's security.
    Thank you and I yield back.
    [The prepared statement of Mr. Cravaack can be found in the 
Appendix on page 95.]
    Mr. Miller. Mr. Cravaack, thank you very much for your 
testimony. As we have said to everybody, we will take your 
proposal into consideration as we proceed with the drafting of 
our defense authorization bill this year.
    I would ask if any other Member has any questions.
    Mr. Smith?
    No questions.
    Mr. Cravaack, you are excused. Thank you, sir.
    Mr. Cravaack. Thank you, sir, for your time.
    Mr. Miller. Now recognize the gentleman from Oklahoma.
    Mr. Boren, thank you for appearing before this committee. 
You are recognized for 5 minutes.

  STATEMENT OF HON. DAN BOREN, A REPRESENTATIVE FROM OKLAHOMA

    Mr. Boren. Thank you, Chairman Miller.
    Also Ranking Member Smith, members of the committee.
    Thank you for the opportunity to speak before you to 
discuss an issue that is critical to the space industrial base.
    I was recently made aware of efforts by the Defense 
National Stockpile to sole-source contracts for a critical 
space technology, germanium wafers, used in the production of 
solar cells for our defense satellites.
    I believe the Department of Defense should support 
competition wherever we can find it to preserve valuable 
taxpayer resources and to develop American industry.
    Currently, the Defense Stockpile is limiting the production 
of germanium wafers used in solar cells on defense satellites 
to one company. I am concerned both the qualified supplier of 
these materials for the last decade and the U.S. subsidiary of 
that company are prohibited from competing to supply these 
materials, the former because their facility is located outside 
the United States and the latter because the Air Force Research 
Lab has not yet supported qualification.
    I support the efforts of the stockpile to provide the 
materials needed for our national defense and understand its 
desire to utilize a U.S. supplier. However, I cannot understand 
actions that prohibit another U.S. company from competing. 
Moreover, I am concerned that its decisions related to 
germanium wafers takes an approach that stifles competition 
instead of taking advantage of competitive sources of supply 
that would grow the space industrial base.
    Mr. Chairman, I seek your assistance in requiring the 
stockpile to comply with its obligations to support all U.S. 
industry equally. I intend to submit a letter requesting a 
provision in the defense authorization bill for fiscal year 
2013 that requires the stockpile to maximize competition for 
germanium wafers in the larger space industrial base.
    The administrator of the stockpile has stated that he is 
committed to competition and developing multiple sources of 
supply for this critical material. The provision I am 
requesting will prevent sole-sourcing of this material unless 
the administrator certifies in writing to the House and Senate 
Armed Services Committees that it is in the national interest 
to do so.
    Mr. Chairman, I appreciate your consideration of this 
important issue. It is also wonderful to be back in my old 
committee, and I see where I would have been sitting there 
right by Mr. Larsen; so good to be back.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Boren can be found in the 
Appendix on page 79.]
    Mr. Miller. It is as if you never left.
    Thank you, Mr. Boren, for your testimony. We will keep your 
testimony in consideration.
    I would ask if any of my colleagues have any questions.
    Mr. Smith?
    No questions. Thank you, Mr. Boren. We appreciate you being 
here today. You are dismissed.
    Next we have the gentleman from Kentucky, Mr. Guthrie.
    Mr. Guthrie, thank you for being here before the Armed 
Services Committee today. You are recognized now for 5 minutes 
to discuss your legislation.

STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE FROM KENTUCKY

    Mr. Guthrie. Thank you. Good morning, Chairman Miller and 
Ranking Member Smith and distinguished members of the House 
Armed Services Committee.
    I am before you today as both a Member of Congress and a 
former Army officer to thank you for your past support of a 
priority issue for wounded warriors; and to ask that you 
continue to pursue needed work on the subject.
    In the 2011 Defense Authorization Act, report language 
included by this committee directed the Secretary of Defense 
to, quote--``review the current state of medical training and 
research for genitourinary trauma within the Department of 
Defense to determine if there are deficits with regard to care 
that can be provided in combat zones.''
    As you may know, genitourinary trauma, or simply urotrauma, 
is a class of wounds that literally hit below the belt. 
Urotrauma accounts for wounds to the kidneys, reproductive 
organs and urinary tract organs. These injuries are some of the 
most common and debilitating suffered by our veterans from IED 
detonations and have long-lasting physical and psychological 
impacts.
    Urotrauma is one of the signature wounds of the IED and now 
accounts for one-eighth of all injuries suffered by our troops 
in Afghanistan. Unfortunately, the most recent data available 
suggests that this figure is still rising, even after nearly 
doubling in incidence between 2009 and 2010.
    DOD's report to Congress titled ``Genitourinary Trauma and 
the Military'' highlights the size and complexity of this 
problem, and I would ask unanimous consent it be submitted for 
the record.
    Mr. Miller. Without objection.
    [The information referred to can be found in the Appendix 
beginning on page 135.]
    Mr. Guthrie. According to this DOD report, urotrauma 
incident rates on the modern battlefield exceed the historical 
average of all prior conflicts by at least 350 percent. This 
means that the proportion of all wounded warriors who suffer 
from urotrauma injuries sustained in Iraq and Afghanistan is at 
least three and a half times greater than that of any prior 
war.
    And yet the DOD Under Secretary for Personnel and Readiness 
concedes that, quote--``Urotrauma injury is not part of the 
standards of pre-deployment training for U.S. military surgeons 
and nurses,'' and that the existing infrastructure for tracking 
these casualties, quote--``is not sufficient to assess the 
long-term prognosis of G.U. trauma injuries.''
    DOD makes it clear that the current state of care isn't 
good enough and that we don't have an adequate plan or database 
to help these wounded warriors cope with their injuries 
throughout their lifetime.
    Let me now draw attention to the conclusions of the DOD 
report, which is what brings me here today. To summarize DOD's 
needs for urotrauma care, the Under Secretary states that, 
quote--``The recommended action plan for research is that the 
military form interservice and interagency relationships to 
facilitate aggressive, innovative and relevant translational 
and outcomes-based clinical research.''
    I could not agree more with the Under Secretary's 
conclusion. We must move forward and build upon the research 
already collected by military and civilian personnel. That is 
why I have introduced H.R. 1612 to form the Interagency 
Urotrauma Commission to do exactly that.
    H.R. 1612 would bring together DOD, the VA, HHS [U.S. 
Department of Health & Human Services], the surgeon generals of 
each of our Armed Forces, and civilian expertise to create a 
plan to care for these wounded warriors from the point of 
injury to their final resting place decades from now.
    This is a bipartisan bill with 23 cosponsors, many who 
represent military communities like Fort Knox, which is in my 
district. These communities understand the frequency and 
severity of these wounds at a human level and a professional 
one. Let me say in closing that the miracles of modern 
medicine, combined with the devotion of our military medical 
corps, have allowed many of these wounded warriors to live a 
long life rather than perishing in the line of duty.
    However, giving these service men and women the ability to 
survive is not enough. We have a responsibility to do what we 
can to ensure they can live as full a life as possible. That is 
a debt we owe to those who defend our freedom.
    I urge this committee to continue the work it has already 
done to further our care for these wounded warriors suffering 
the effects of urotrauma, and I urge the adoption of H.R. 1612 
into this year's defense authorization.
    Mr. Chairman, I yield back my time.
    [The prepared statement of Mr. Guthrie can be found in the 
Appendix on page 86.]
    Mr. Miller. Thank you very much, Mr. Guthrie. We appreciate 
your testimony today.
    I would ask if any of my colleagues have questions for Mr. 
Guthrie.
    Mr. Smith?
    Thank you very much. Thank you. You are dismissed.
    Next we would like to recognize the gentleman from 
Missouri, Mr. Graves.
    Thank you for being here to testify. You are recognized for 
5 minutes.

  STATEMENT OF HON. SAM GRAVES, A REPRESENTATIVE FROM MISSOURI

    Mr. Graves. Thank you, Mr. Chairman, Ranking Member and the 
rest of the members of the committee.
    Given the Federal Government spends over $0.5 trillion each 
year through contracts, the Federal procurement market is 
incredibly important for all small businesses. Improving small 
business opportunities for Federal contracts is a triple play. 
Small businesses win more contracts, workers win as the small 
business creates jobs, and taxpayers win because the small 
business brings competition, innovation and lower prices, it 
saves the Government money and improves the health of the 
industrial base.
    Over the past year, the Small Business Committee has held 
10 hearings on the Federal procurement process, which has 
resulted in 8 bills being introduced, each of which has been 
voted on by the committee with bipartisan support.
    The package of reforms has been supported by over 20 trade 
associations, including the National Defense Industrial 
Association, the Association of General Contractors, Chamber of 
Commerce, the Financial Services Roundtable, the Minority 
Business Roundtable and Women Impacting Public Policy, and 
many, many others.
    At the same time that the Small Business Committee was 
developing legislation, this committee's Panel on Business 
Challenges in the Defense Industry was holding hearings and 
roundtables addressing many of the very same issues under the 
leadership of Mr. Shuster and Mr. Larsen. I was pleased to be a 
part of those roundtables with Mr. West and Mr. Shuster.
    The panel's final report, issued just last month, and the 
legislation marked up by the Small Business Committee 
complement each other and reflect a common understanding of 
issues facing small business participation in the industrial 
base.
    Therefore I am here today to support the inclusion of the 
eight small business contracting bills in this year's National 
Defense Authorization Act.
    As I discussed in detail in my written statement, each of 
these bills ties to the panel's report, including raising the 
government-wide small business contracting goal from 23 to 25 
percent; including the level of responsibility for small 
business advocates embedded within each Federal agency; 
addressing fraud and abuse and eliminating the deceptive 
practice of pass-throughs; improving mentor-protege programs 
and the size-standard review process; and lastly, addressing 
unjustified contract bundling.
    Each of the bills received bipartisan support in the 
committee, each supports the intentions, if not specific 
recommendations of the panel report produced by this committee, 
and most importantly, each bill provides more opportunity to 
small businesses to create jobs at a price that is in the best 
interest of the taxpayers.
    I am very pleased that our two committees were able to work 
cooperatively, and I hope that this language can be 
incorporated in this year's national defense authorization.
    And with that, Mr. Chairman, I would yield back.
    [The prepared statement of Mr. Graves can be found in the 
Appendix on page 51.]
    Mr. Miller. Thank you, Mr. Graves, for your testimony.
    Any questions?
    Mr. Schilling, you are recognized.
    Mr. Schilling. Mr. Chairman, really no comment.
    I just wanted to thank Chairman Graves.
    As a small businessman, I just wanted to thank him for all 
of his hard work and dedication to the small businesses across 
America and for really making the Small Business Committee a 
very effective voice for small businesses.
    So I just want to thank you for your dedication, sir.
    Mr. Graves. Thank you very much.
    Mr. Schilling. Yield back.
    Mr. Miller. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I want to thank Mr. 
Graves as well for his work on the SBIR [Small Business 
Innovation Research] programs last session. It was, you know, 
yeoman's work over a lot of years, and we were happy to be able 
to work with you on that and get that out in the NDAA bill.
    Thanks for getting that done. I know it wasn't easy and it 
was a long time coming. So thanks for your work on that.
    Mr. Graves. Thank you.
    Mr. Miller. Any other Members?
    Thank you very much, Mr. Graves, again, for your testimony. 
You are dismissed.
    Now I would like to invite Mr. Neugebauer, the gentleman 
from Texas, forward to testify on his legislation.
    Mr. Neugebauer, you are recognized to testify for 5 
minutes.

STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE FROM TEXAS

    Mr. Neugebauer. Thank you, Chairman Miller and Ranking 
Member Smith and other members of the Armed Services Committee. 
Thank you for providing me this opportunity.
    For the last 9 years I have had the honor and privilege of 
representing the men and women of Dyess Air Force Base in 
Abilene, Texas. This is home of the 7th Bomb Wing and the 317th 
Airlift Group, as well as Guard and Reserve units.
    In between these missions, our service members have been 
playing a daily role in the fight against terrorism.
    I want to highlight a couple of important things that have 
happened. For example, the C-130 milestone that happened at the 
317th Airlift Group marked 3,000 days of continuous deployment, 
a streak dating back to December of 2003. During this time over 
7,000 members of this group were in harm's way.
    As you know, air mobility mission is an important mission 
in our modern military. Operations that used to take weeks and 
months now take days and hours.
    The 317th has often been labeled the busiest C-130 group in 
the Air Force, and this current deployment streak is another 
honored mark in a long history of Dyess airlifters.
    The B-1 milestone was another important milestone. Also, 
earlier this year, the B-1 flew its 10,000th combat mission 
since it first entered service in 1985.
    The B-1 has been transformed into the workhorse of the 
bomber fleet. In Afghanistan, for example, the B-1 has seen 
daily use and dropped almost 70 percent of the precision-guided 
munitions.
    At 75,000 pounds, the B-1 actually carries the largest 
payload of any of our bombers, even more than the B-52 
Stratofortress.
    But the B-1 is not just about large payloads. To quote 
General Petraeus, the B-1 also, and I quote, ``has very good 
ISR [intelligence, surveillance and reconnaissance] 
capabilities. . . [It] can loiter for a good time when it's not 
being used to drop bombs'' and it ``is almost like having 
another unmanned aerial vehicle in terms of full-motion video 
and so forth.'
    So it is not just a case of a very capable bomber just 
boring holes in the sky and waiting to open the bomb bay doors. 
Mr. Chairman, the B-1 is not just all brawn and no brains. It 
can simultaneously deliver firepower and intelligence support 
to our troops. And it can stay in the area for and sustain 
these efforts for significant periods of time.
    Under the President's new defense strategic guidance, the 
attributes are even more important for future conflicts. The 
tyranny of distance and the uncertainty of allied support 
changes the long-range bomber's role from important capability 
to a critical capability for our Nation's defense.
    I would like to thank the committee, including my West 
Texas colleagues, Mr. Thornberry and Mr. Conaway, and 
Congresswoman Noem for their work to address last year's B-1 
retirement proposal.
    While I feel strongly that we should keep the current fleet 
size at 66 to address our changing national security 
priorities, but by spacing these 6 retirements over 5 years, we 
can carefully study and assess the impact that these 
retirements may have.
    Soon the Air Force will only have 156 bombers in its fleet. 
More than half of those will be over 50 years old. While a new 
bomber is still probably 10 to 15 years away, we must proceed 
cautiously in making decisions regarding this extremely 
valuable and limited resource.
    In closing, I would like to urge the committee to continue 
to follow this issue closely and ensure that the spirit and the 
letter of its efforts from last year are followed. I would also 
like to urge the committee to support the current B-1 
sustainability improvement efforts in this year's budget.
    Thank you for inviting me to testify here today. I would 
offer this postscript. I know a number of people have been out 
watching the shuttle do a fly-over, and that is a great 
sensation, but I would tell you that experiencing a B-1 fly-
over is an even more exhilarating sensation as well. And in 
fact, a lot of times in the theater, the
B-1 has been called in really not to necessarily drop a bomb 
but, you know, just to fly over at a close range and, you know, 
a lot of times sends our enemy to scatter.
    But, anyway, the B-1 is an extremely important asset. And 
as we look at strategic needs in the future, I hope that the 
committee will carefully weigh our bomber options and continue 
to support the B-1.
    With that, Mr. Chairman, I would take any questions.
    [The prepared statement of Mr. Neugebauer can be found in 
the Appendix on page 77.]
    Mr. Miller. Thank you, Mr. Neugebauer, for your testimony 
and your continued fight for your congressional district. I 
look forward to coming to your district. Maybe we can go see 
one of those
B-1s while we are out there.
    I would ask if any Members have any questions they would 
like to ask?
    Mr. Smith? Thank you, sir.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Shuster. Mr. Chairman, if I could just be recognized 
for a quick moment to make a comment?
    Mr. Miller. You are late and you want to talk?
    [Laughter.]
    Mr. Miller. You are recognized, Mr. Shuster.
    Mr. Shuster. I came to see Chairman Graves' testimony 
because I wanted to thank him for working----
    Mr. Miller. You missed it.
    Mr. Shuster [continuing]. With us. I know I did. But I just 
wanted to go on record as saying I appreciate what the Small 
Business Committee is doing and also to publicly thank Ranking 
Member Smith for he and Chairman McKeon setting up the business 
panel, and I appreciate you doing that. And hopefully, these 
recommendations will move forward with the help of the Small 
Business Committee and the leadership of the committee. So 
thank you very much.
    Mr. Miller. Thank you, Mr. Shuster.
    Mr. Shuster. Sorry for being late, Mr. Chairman.
    Mr. Miller. Are you going to stay?
    Okay. Thank you very much.
    The gentleman from Illinois, Mr. Walsh, thank you for being 
with us today, and you are recognized for 5 minutes.

  STATEMENT OF HON. JOE WALSH, A REPRESENTATIVE FROM ILLINOIS

    Mr. Walsh. Thank you, Mr. Chairman.
    I am no Sam Graves, but we will do the best we can.
    Thank you, Mr. Chairman. Thank you, Ranking Member Smith 
and members of the committee.
    The first hearing I chaired as chairman of the Small 
Business Committee's Subcommittee on Economic Growth, Tax and 
Capital Access examined the Small Business Administration's 
definitions of small business.
    What I learned during that hearing and over the past year 
inspired H.R. 3987, the Small Business Protection Act of 2012, 
which I introduced with Mr. Connolly and which was marked up 
last month. During that same period, your own Panel on Business 
Challenges in the Defense Industry also explored issues with 
the SBA's size standards.
    As you know, the Small Business Act defines a small 
business as one that is independently owned and operated and 
not dominant in its field of operation. It then allows SBA to 
implement industry-specific size standards accordingly.
    SBA, however, is currently decreasing the number of size 
standards it will permit for the 1,100 industries in the North 
American industrial classification system from about 40 to 16.
    At the same time, it is combining many of these industries 
together into new common groups under a single size standard.
    While SBA appears to be examining the right factors when 
establishing size standards, both the Small Business Committee 
and your panel seem troubled by the way SBA is applying these 
factors.
    Most troubling is this decision of SBA's to combine related 
industries into common groups with one size standard. While 
they claim that this simplifies the process, what it really 
does is hurt legitimate small businesses.
    Let us look at architecture and engineering firms. SBA's 
own metrics show that architecture firms should have a size 
standard of $7 million and engineering firms of about $25.5 
million. Yet, SBA has decided to combine them into a common 
group with a size standard of $19 million, which is completely 
inappropriate for either.
    In the one instance, it forces legitimate small firms to 
compete against much larger firms, and in the other it 
completely excludes legitimately small firms from competing for 
small-business contracts.
    Excluding legitimate small businesses limits growth and 
harms the defense industrial base. Panel Recommendation 2.2 
stated that Congress should amend the Small Business Act to end 
the practice of combined size standards, stop placing 
artificial limits on the number of size standards and better 
define what factors should be considered when size standards 
are proposed.
    In doing so, it reinforced my Small Business Protection Act 
because this is exactly what the bill does. It requires 
additional specificity in the rule-making process and directs 
SBA to both stop these unwarranted combined size standards and 
focus on having the right size standards, rather than a fixed 
number of size standards.
    In short, in ensures that we do not abandon legitimate 
small businesses seeking to compete for Federal contracts.
    Both the panel and I believe these changes will also 
benefit the Department of Defense. It will ensure that the 
right size standards are in place, which will assist the 
Department as it works on the health of the industrial base. I 
want to thank you all for working collaboratively with us on 
the NDAA and for looking at the many bipartisan measures the 
Small Business Committee marked up for inclusion in this year's 
bill.
    I want to especially thank you for considering including 
the Small Business Protection Act in the NDAA. With over $500 
billion in Federal contracts being awarded each year and 70 
percent of those dollars being awarded by the Department of 
Defense, it is important for us all to realize that we can 
better serve the taxpayer and our service members by ensuring 
that small businesses can compete for these contracts.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Walsh can be found in the 
Appendix on page 127.]
    The Chairman [presiding]. Thank you very much.
    This, as I have mentioned earlier, is an ongoing problem 
that we have been dealing with for a period of time, but we 
will continue. Mr. Shuster, with his panel this year, has moved 
the ball, and it will be very helpful as we go through and do 
the bill.
    Did you have something?
    Mr. Shuster. Yes, I think I just want to commend the 
gentleman for moving forward with your legislation. And it is 
difficult, as we found over the last 6 months. You know, nobody 
was really sure where they were, and so you putting that 
forward that there is no rule-making unless they go through a 
period, I think, is very good.
    I want to continue to work with you and the Small Business 
Committee because we found the challenges are huge out there 
for the small and medium-size companies when they are dealing 
with the Department of Defense.
    So, again, thank you for your work, Mr. Walsh.
    Mr. Walsh. Thank you.
    The Chairman. Thank you very much.
    We now recognize the gentleman from Puerto Rico, 
Representative Pedro Pierluisi, for 5 minutes.

 STATEMENT OF HON. PEDRO R. PIERLUISI, A RESIDENT COMMISSIONER 
                        FROM PUERTO RICO

    Mr. Pierluisi. Thank you, Chairman McKeon, members of the 
committee. Thank you for the opportunity to testify about my 
priorities for the NDAA. I would like to focus my testimony on 
the importance of robust funding for DOD counter-drug 
activities.
    I have worked hard to raise awareness in the Federal 
Government about drug-related violence in Puerto Rico and the 
U.S. Virgin Islands [USVI] and to urge the Federal Government 
to dedicate the resources and personnel necessary to address 
this problem.
    Violent crime in Puerto Rico and the USVI has been on the 
rise for over a decade, even as violent crime nationwide has 
decreased substantially. The homicide rate in each territory is 
about six times the national average and almost three times 
higher than any State.
    Puerto Rico has nearly the same number of annual murders 
that Texas does, even though Texas is home to 25 million people 
and Puerto Rico is home to just 3.7 million U.S. citizens. 
About three-quarters of the murders in Puerto Rico and the USVI 
are linked to the drug trade.
    As the U.S. Government has, to its credit, increased 
resources along the southwest border, drug trafficking 
organizations have adapted, turning back to well-established 
routes in the Caribbean to get their products to market.
    This is a problem of national scope. Over 70 percent of the 
cocaine that enters Puerto Rico, which has 700 miles of 
coastline, is then transported to the 50 States. Because Puerto 
Rico is within the U.S. Customs zones, once drugs enter the 
island, they can easily be delivered to the States on airlines 
and ships without having to undergo heightened scrutiny. And 
once in the States, those drugs destroy lives and communities, 
just as they do in Puerto Rico. In order to reduce drug-related 
violence in Puerto Rico and the USVI, and to make the 
territories a less attractive transshipment point for drug 
trafficking organizations seeking to supply the U.S. market, 
Puerto Rico Governor Luis Fortuno, a Republican, and I, a 
Democrat, have proposed that the Administration establish a 
Caribbean Border Initiative. Our Nation has a Southwest Border 
Initiative, a Northern Border Initiative, but it has no 
counter-drug strategy for our maritime border in the Caribbean.
    The consequences of this non-strategy are clear: the 
violent deaths of tens of thousands of American citizens. I 
cannot escape the conclusion that if this level of violence 
were occurring in any state, it would be treated as a national 
emergency requiring immediate Federal action.
    DOD has requested $1.6 billion in fiscal year 2013 for 
counter-drug activities, nearly $200 million below the fiscal 
year 2012 enacted level. I want to discuss two ways in which 
Puerto Rico will be adversely affected in the absence of 
positive steps from Congress and this committee.
    First, DOD has requested an appropriation of $105 million 
for the National Guard Counterdrug Support Program, which is 
$123.9 million below the fiscal year 2012 enacted level. This 
request was made despite the fact that in last year's defense 
appropriations bill, Congress provided a $50 million plus-up to 
this account, stating, and I quote--``The Department of Defense 
consistently has failed to provide adequate resources for state 
plans in its budget requests. Congress repeatedly has 
demonstrated its recognition of the value the National Guard 
capabilities bring to counter-drug efforts.''
    The NGB [National Guard Bureau] is implementing a threat-
based resource model whereby funding will be allocated among 
the National Guards in 54 jurisdictions based on the severity 
of the narcotics threat faced by each jurisdiction as measured 
by over 20 criteria. In the abstract, the model makes good 
sense, but in practice, it has completely failed for Puerto 
Rico because the Federal Government does not collect statistics 
to the same degree in the U.S. territories as it does in the 
states.
    Currently, the Puerto Rico National Guard receives $5.5 
million annually to provide counter-drug support to Federal and 
local law enforcement agencies. However, under the new threat-
based model, our Guard is stated to receive less than $850,000. 
This is an 85 percent cut.
    Actually, it just makes no sense. It is pretty much 
outrageous, given the threat, given what is happening in the 
Caribbean these days. It is a matter of record. It is in The 
Washington Post, in The Wall Street Journal, New York Times. 
How can you make a cut of 85 percent there?
    If this cut is realized, it would destroy the counter-drug 
program in the jurisdiction that has perhaps the single worst 
drug-related violence problem in the Nation, and it would be a 
tragic result. My office has been working with NGB to determine 
precisely where the process broke down. But it is clear that 
the data collection effort in Puerto Rico was inadequate.
    Therefore, I respectfully ask the committee to work with me 
to ensure that total funding for the National Guard Counterdrug 
Support Program is increased, and in particular to ensure that 
Puerto Rico receives its fair share of whatever funding is 
allocated. One option I hope the committee will consider is a 
provision in the NDAA stating that the territories should 
receive an appropriate portion of any plus-up that the 
Appropriations Committee provides to this account in fiscal 
year 2013.
    The second problem for Puerto Rico involves the Tethered 
Aerostat Radar System program known as TARS.
    The Chairman. The gentleman's time has expired.
    Mr. Pierluisi. And I will be glad to submit my statement in 
writing--my full statement for the record of this committee, 
Mr. Chairman.
    [The prepared statement of Mr. Pierluisi can be found in 
the Appendix on page 129.]
    The Chairman. Thank you very much. We will include that in 
the record and we will take it into consideration as we prepare 
the bill. And thank you very much.
    Mr. Pierluisi. Thank you, Chairman.
    The Chairman. We now recognize the gentlelady from 
California, Representative Judy Chu, for 5 minutes.

  STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE FROM CALIFORNIA

    Ms. Chu. Good morning.
    Before I begin, I ask unanimous consent to submit an 
extension of my remarks into the record for this hearing, 
asking to include the Building Better Business Partnership Act, 
a bipartisan bill that Representative Robert Schilling and I 
introduced as a provision in this year's National Defense 
Authorization Act.
    The Chairman. No objection?
    So ordered.
    [The information referred to can be found in the Appendix 
beginning on page 144.]
    Ms. Chu. But my primary reason for being here is to discuss 
how the Armed Services Committee through this year's NDAA can 
help prevent military hazing. This month marks the year 
anniversary of the death of my nephew, Marine Lance Corporal 
Harry Lew. It was on April 3rd, 2011, in response to hours of 
physical abuse and torture at the hands of his peers that Harry 
took his own life.
    At the time, I didn't know how common this tragedy was--how 
many other service members had suffered as he did, but the 
letters started pouring in day after day, week after week. 
Mothers, friends and service members themselves wrote in 
excruciating detail about what they and their loved ones 
endured.
    And so I came to both of you, Chairman McKeon and Ranking 
Member Smith, and told you Harry's story. I asked for your 
support to prevent another young man or woman from having to 
suffer like Harry did. You helped me monitor Harry's case. You 
met with top officials in the Marines. And last month, there 
was the first hearing on military abuse since 1979. In fact, it 
might have been the first official hearing on hazing in every 
branch of the service in congressional history, and I thank 
Congress Member Wilson for holding the hearing and Congressman 
Coffman for being there.
    But at the March hearing, I heard every branch say that 
they have hazing under control; that their policies are 
working. If that were true, why is Harry dead; Danny Chen, 
Brushaun Anderson? Why do their abusers continue their military 
careers and get promoted? And why have I received so many 
letters and calls from as far away as Germany asking me to 
stand up against hazing?
    I am here today to ask your help again because we have much 
more work to do. At the hearing, I was shocked to learn that 
some services don't even have a policy expressing the 
prohibition of hazing. Others don't offer anti-hazing training. 
Most of the services do not track the number of hazing 
incidents. And those that have a tracking system do not analyze 
or use the data to improve their practices.
    So I ask: How can the military claim that they are doing 
everything perfectly if they don't have anti-hazing policies or 
training? How can they know that they are doing everything 
perfectly if they don't know how many people are being hazed? 
They can't. That is why I ask you to include the following 
language in the NDAA to help eradicate hazing in the military.
    First, we should make hazing a crime in the Uniform Code of 
Military Justice. This would help provide a strong disincentive 
against hazing. It would be an important tool to prosecute 
perpetrators. Currently, 31 states define hazing as a crime. In 
the March hearing, both representatives from the Marine Corps 
and the Army expressed interest in creating a statutory 
definition of hazing in the military code. This would make it 
easier for them to track the number of hazing incidents.
    Second, we should institute a national hazing database that 
tracks incidents of hazing. By creating such a database, 
similar to the Database for Sexual Assault, the military, 
Congress and the public would be able to improve the military's 
hazing practices and ensure better oversight.
    The database should be comprehensive and include the number 
of hazing allegations, the number of substantiated cases, and 
the penalties imposed on the perpetrators, including non-
judicial punishment and court-martials. The military could then 
use this data to provide an annual report to Congress.
    Third, we need an objective GAO study on hazing. Every 
branch of the armed services has different policies, training 
and procedures regarding hazing and harassment. We need a more 
thorough understanding, an objective analysis of hazing in the 
military and what more can be done to prevent it.
    Hazing has no place in our military. It undermines our 
military readiness and deeply scars those volunteers forced to 
endure it. So thank you for all that you have done so far. I 
look forward to continuing to work with you to ensure that the 
military truly has a zero-tolerance hazing policy at every 
level, from the Pentagon to the smallest COB [contingency 
operating base] on the most remote base in Afghanistan.
    Thank you.
    [The prepared statement of Ms. Chu can be found in the 
Appendix on page 88.]
    The Chairman. Thank you very much, and we will continue to 
work with you as we go through the writing of the bill.
    Mr. Smith.
    Mr. Smith. Yes, Ms. Chu, if I could just quickly, before 
you depart.
    First of all, thank you for your work on this. And second 
of all, I don't know if you know we had a small roundtable 
discussion yesterday with Secretary Panetta and General Dempsey 
talking about sexual assault. And General Dempsey made the 
point unasked, you know, what are they looking to do in terms 
of to make the force look better, and he said, ``Well, the 
cornerstone of everything is trust.'' And he said the two 
biggest things that are undermining the trust right now is the 
sexual assault problem, and he mentioned hazing as the second.
    So certainly at the very top of the Joint Chiefs, they are 
aware of the problem and would welcome your help and 
assistance, as this committee will, in trying to find ways to 
solve it. Because if, you know, basically if you can't trust as 
a member of the military that the people in the military have 
got your back, the trust goes away and the entire system 
doesn't work.
    So you have made a difference. You are getting people's 
attention and we will continue to work on the problem. And I 
thank you very much for your work on it.
    Ms. Chu. Thank you so much.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Wilson. Mr. Chairman.
    The Chairman. Yes, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to commend Congresswoman Chu for your 
leadership on this issue. You have really conducted yourself in 
such a professional manner, an extraordinary reflection on your 
family. And we do share your concern, and thank you so much for 
raising the issue of hazing. And I join back.
    Ms. Chu. Thank you.
    The Chairman. Thank you very much.
    We now recognize the gentlelady from Washington, 
Representative Jaime Herrera Beutler, for 5 minutes.

STATEMENT OF HON. JAIME HERRERA BEUTLER, A REPRESENTATIVE FROM 
                           WASHINGTON

    Ms. Herrera Beutler. Thank you, Mr. Chairman and Ranking 
Member Smith, for having me today.
    I was grateful to hear this committee produce findings last 
month highlighting many of the issues that Mr. Schrader and I 
are attempting to address with H.R. 3980, the Small Business 
Opportunities Act. And that is why I am here today. I want to 
support the inclusion of this bipartisan bill's language in the 
NDAA, along with other bipartisan reforms proposed by the Small 
Business Committee.
    This bill, along with a few others, are jobs bills. In my 
corner of southwest Washington we are approaching our 38th 
straight month of double-digit unemployment, yet we have more 
than 900 small businesses and small business contractors in my 
district alone who could benefit from this bill. And small 
businesses are the ones who create 7 out of 10 new jobs, or at 
least they have for the last 20 years. I would like to see that 
continue.
    The Small Business Opportunity Act seeks to improve 
acquisition planning, training and the roles of the procurement 
center representatives, or PCRs, all of which were addressed in 
the bipartisan panel on business challenges.
    The panel, led by Mr. Shuster, made several recommendations 
that can be addressed by this bill; first, improved 
coordination between senior acquisition officials and small 
business advocates.
    The Small Business Opportunities Act involves small 
businesses and small business advocates from the beginning of 
the acquisitions process. Under this improved system these 
advocates can begin removing barriers to small business 
participation early in the planning process. Currently these 
advocates aren't consulted until the very end and it is really 
hard to unscramble an egg.
    Secondly, the Panel Recommendation 3.9 states that the 
Secretary of Defense should make small business programs an 
emphasis item when training the acquisition workforce. 
Currently, contracts that are best suited for small businesses 
are frequently handled by lower level contracting personnel who 
are not adequately trained. This problem is not unique to the 
Department of Defense. It happens government-wide.
    And my bill would improve this by providing training to all 
contract specialists on small business contracting programs. 
And the result is a well-educated workforce and clearer roles 
for small business advocates who will no longer have to spend 
as much time providing training. This way, they will be better 
able to assist small businesses.
    Finally, the Small Business Opportunities Act sharpens and 
modernizes the job description of PCRs. PCRs work in agencies 
throughout the Federal Government. Their role is to review 
acquisition plans with an eye toward increasing small business 
participation.
    Mr. Chairman, small businesses across the country are eager 
to compete for these Federal contracts, and the byproduct will 
be jobs created across this Nation. Therefore, I want to thank 
you for considering including this language in the NDAA, and I 
offer my support for the inclusion of this bill and the other 
procurement reforms proposed by the Small Business Committee.
    I thank Ranking Member Smith and Chairman Graves and 
Ranking Member Velazquez of the Small Business Committee for 
their help in this effort, and my partner Kurt Schrader, and I 
yield back the remainder of my time.
    [The prepared statement of Ms. Herrera Beutler can be found 
in the Appendix on page 109.]
    The Chairman. Thank you very much. I am sure that----
    Mr. Shuster. Yes, just a brief comment.
    I just wanted to thank Congresswoman Beutler for putting 
this forward. We found going through our process over the last 
6 months this is one of the--it has a significant problem for 
small business and a lot of folks don't even want to do 
business because of just this, because nobody understands they 
are a smaller business. So I think this is incredibly 
important, that we include this in the NDAA as we move forward.
    So, again, I commend the gentlelady for her efforts.
    Ms. Herrera Beutler. Thank you.
    The Chairman. We now recognize the gentleman from Iowa, Mr. 
Tom Latham, for 5 minutes.

    STATEMENT OF HON. TOM LATHAM, A REPRESENTATIVE FROM IOWA

    Mr. Latham. Thank you very much, Chairman McKeon, for 
giving Members the opportunity to bring their priorities and 
concerns to the committee in this open process.
    As you know, in order to meet the requirements of the 
Budget Control Act, the Air Force intends to substantially cut 
its force structure, with the majority of cuts coming from the 
Air National Guard.
    Like you have expressed, I am also concerned that changes 
are being recommended to Congress based purely on meeting the 
right budget number in the short term and not based on the 
national security environment or the finding a more cost-
effective force structure.
    I am greatly concerned that just one F-16 unit out of the 
entire Air Force, the Air National Guard 132nd Fighter Wing in 
Des Moines, was singled out for elimination under the plan, 
with no justification given. When I asked a senior Air Force 
leader why this unit was chosen, I was told that it was simply 
a judgment call.
    Obviously, I am concerned about the economic impact in Iowa 
and the future of those airmen, but I also am most concerned 
that it appears that the decision was made using nonstrategic 
criteria and that the greater cost-effectiveness of relying on 
Air Guard units was completely ignored.
    I believe the decision would have three significant 
national security implications. First, eliminating these multi-
role fighters and nearly 500 positions would be an irreversible 
decision. It takes at least 10 years to achieve the average 
level of experience of Guard pilots and maintainers.
    At the same time, in order to manage uncertainty about the 
future strategic environment, Secretary Panetta's new military 
strategy released in January insists on reversibility in any 
reduction of capabilities, ensuring they can be quickly 
regenerated if the need arises.
    Secondly, the Air National Guard will be flying F-16s for 
many years, even decades into the future, indefinitely in fact, 
since the Air Force has yet to submit a long-range plan for 
them, and most incoming F-35 aircraft will be flown by active 
components. So the Guard will need to maintain expertise in 
operating F-16s for a very long time.
    Third, having the most advanced aircraft is important, but 
adequate numbers of airframes also matter, because an aircraft 
and its pilot cannot be in two places at the same time. We 
currently have the smallest and oldest Air Force in our 
history, which is a significant challenge given the new 
military strategy places renewed focus on the Asia-Pacific 
region.
    According to the American Enterprise Institute, quote--``No 
matter how capable weapon systems might be on an individual 
level, the Asia-Pacific domain demands adequate numbers of key 
platforms.''
    The concern is that enormous distances between bases and 
potential targets in the region could spread aircraft too 
widely, limit dwell times over targets and limit fighter 
coverage.
    I agree with Senator Graham who recently said on the Senate 
floor concerning the Air Force plan that, quote--``Keeping the 
active duty first approach will mean smaller and smaller forces 
that are stretched thinner and thinner and cannot respond where 
and when we need them to.''
    Finally, there is the issue of making the most of each 
taxpayer dollar, which is precisely what Congress should be 
doing and what the American people expect in response to budget 
constraints. Air Guard F-16s bring greater experience and lower 
operating costs, both personnel and infrastructure, yet the Air 
Force ignores the cost effectiveness of the Guard as a way to 
achieve additional cost savings. They have relied upon what 
many believe is a flawed costing model, which compares deployed 
members only and concludes that reservists cost more than 
Active Duty members.
    As for infrastructure efficiencies, the Air National Guard 
has access to $5.9 billion in community airport infrastructure 
for $20,600 per year, the equivalent of renting a $300,000 
house for $87 a month.
    The Department of Defense and GAO are currently conducting 
a new study on comparative cost effectiveness mandated in last 
year's defense bill. The study will also examine what mix of 
forces could carry out the range of missions anticipated under 
the national military strategy.
    The results of the study are due to the committee June of 
this year. Before we allow the Air Force to shift the Active 
Duty/Reserve Component mix back to the Cold War ratio of the 
1990s, we need to have these results.
    We face a very challenging defense budget. Let us work to 
minimize cuts to capabilities we need in the long term. I 
believe that the members of the committee understand the 
seriousness of this issue and I know they will do what is best 
for the future of our Nation's defenses.
    And I thank the gentleman very much for the opportunity to 
testify today.
    [The prepared statement of Mr. Latham can be found in the 
Appendix on page 43.]
    The Chairman. Thank you very much. You have pointed out 
very well the problem that we have facing us, that we were 
given a budget by the President and that was built off of a 
speech that he gave a little over a year ago that we needed to 
cut another $400 billion out of defense because it was such a 
big target.
    And then instead of picking what our needs are, what our 
risks are, and then devising a budget to meet that, we have 
backed into solving our risks to meet the smaller budget. And 
what that does, then, is increase the risk.
    So I appreciate you pointing this out. And we will 
definitely look at this as we go through the process. It is 
going to be tough working all of these things out. But I think 
that people need to really understand how serious this is. I 
was sitting down at the Pentagon a few months ago and our top 
military leader told me at the end of that meeting, ``I have 
been in this business for 37 years and this is the most serious 
I have ever seen our situation our Nation is in.''
    So I think that we really need to take all of that into 
consideration as we go through this process. Thank you very 
much.
    Mr. Latham. I thank the chairman very much for opportunity.
    The Chairman. We now recognize the gentleman from 
Pennsylvania, Mr. Murphy, for 5 minutes.

      STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. I would like to submit 
additional data about the bases and the offer for additional 
land from the Allegheny County Airport Authority for the 
record, as I talk.
    [The information referred to can be found in the Appendix 
beginning on page 60.]
    Mr. Murphy. Mr. Chairman, members of the committee, in 
particular Mr. Shuster, and thank him for personal efforts on 
this issue, I thank you for your time and efforts in service to 
our Nation's defense, our soldiers and military families, and I 
am grateful for the opportunity to share with you the deep 
concerns southwestern Pennsylvania has about Air Force plans to 
close the 911 Air Reserve Station, which houses C-130 Hercules 
transport planes, and the transfer of four KC-135 refueling 
tankers from the 171st Air National Guard station.
    These facilities, which are located in Moon Township near 
Pittsburgh, in Pennsylvania's 18th Congressional District, are 
both located at the Pittsburgh International Airport. The 911th 
and the 171st are two of the most accomplished, cost effective, 
and decorated installations in the country.
    They possess unique value to our Nation's military, and I 
fear the Pentagon is proceeding with an irreversible course 
that is misguided, misinformed, and mistaken. It is a present-
day version of the $400 hammer and the $200 toilet seat; cut in 
haste, pay in the long run. And over the past 2 months I have 
been pushing the Air Force to provide documentation justifying 
these actions.
    The report which I recently received confirms what I have 
suspected all along. The Air Force is making a quick and easy 
decision, rather than an economical one. They are doing what 
they think they can instead of what they should.
    The Air Force analysis relies on two flawed premises. 
First, they believe the 911th has the oldest and costliest C-
130s, and indeed they do, but they were given those old C-130s 
when they took their newer planes from them.
    Number two, the decision to close the 911 doesn't require 
congressional approval, another flawed assumption. First, I 
said the 911th has older aircraft because the Air Force sent 
the new ones off to combat. They gave the 911th older high 
maintenance models.
    Second, the Air Force falsely believes the 911th has fewer 
than 300 authorized personnel, which means that no 
congressional approval would be need for the closure. However, 
that base actually has more than 300 civilian employees, but 
the Air Force is using different accounting methods for that.
    Now I dispute the numbers of the Air Force, and I believe 
the 911 is the victim of its own success--should also note that 
by sharing expenses with nearby bases and the Pittsburgh 
International Airport, the 911 has fewer personnel for the low 
cost of $20,000 per year. The Pittsburgh Airport, which has 
four 10,000-foot runways, takes care of snow removal, fire and 
safety security, and control tower all given to the air base at 
next to nothing charges.
    By sharing all these expenses, and by having fewer 
personnel, the irony is that if the 911th was less efficient 
and costly to operate the Pentagon wouldn't have the power to 
close it.
    Ironically, as I say the airport authority did not offer 
those personnel. It would cost the U.S. Air Force about $40 
million over 10 years, instead of $200,000 over 10 years. And 
there you have your $400 hammer again.
    I am confident that once you review the data, I am sure you 
agree that these bases must remain fully operational.
    First, a little background; the 911th and the 171st are 
highly decorated. Now stop and think also, a base called 911. 
Few dates are etched in the minds of Americans with more 
patriotic emotion than 911. Imagine other places such as Pearl 
Harbor, Valley Forge, or Gettysburg being cited for 
dismantling.
    I also should say the 171st was handpicked to serve as a 
lead unit for combat support missions enforcing the Libya no-
fly zone. The 171st executed more mission hours in the last 2 
years and had the lowest total non-mission capable rate for 
maintenance among all KC-130 Guard units. It would be like an 
NFL coach told to cut its roster by removing the first string 
so they could save some money.
    But beyond the accolades are strategic reasons why these 
bases must remain open. The 911th and the 171st offer joint 
training with other units, and regularly work with local 
emergency responders and Federal law enforcement. As part of 
the military disaster preparedness responsibilities, few places 
have the assets of Pittsburgh, which is located within 2 hours 
flying time of 70 percent of the U.S. population.
    And, the region's world-class medical system offers a 
unique combination of supportive operations, and a readily 
accessible air lift. This included in the national disaster 
medical system which trains nurses and doctors to respond to 
disaster stricken zones and therefore be ready if problems 
should happen again of an attack from terrorists.
    End strength at both bases is extremely high because 
commanders recruit from a unique talent pool, trained and 
working commercial aviation. And it is one of the highest 
recruiting units.
    I am deeply worried that these structure changes will cost 
the Air Force a great deal more. And for all these reasons, the 
Pentagon is making sizeable investments. I should say they 
spent more

than $58 million dollars in the last 5 years on new buildings, 
some yet to reopen; new security gates; new medical facilities; 
and newly rehabbed buildings.
    I am troubled that they are relying on faulty assumptions 
about the acreage. The Air Force says the 911th can't house any 
more than 10 C-130 aircraft. This is untrue. And it has been 
offered additional space from the county airport authority of 
20 acres; they can go up to 20 more airports.
    Finally----
    The Chairman. Gentleman's time has expired and without 
objection your full statement will be included in the record.
    Mr. Murphy. Thank you.
    [The prepared statement of Mr. Murphy can be found in the 
Appendix on page 57.]
    The Chairman. I especially like your analogy of getting rid 
of the first string on any professional team to save money. 
That looks to me exactly like what we are going to be doing 
with our defense.
    Mr. Shuster.
    Mr. Shuster. Well thank you Mr. Chairman. I have grave 
concerns about closing 911 also, and just a couple of questions 
for Mr. Murphy. Just recently I was out there and visited and I 
want to make sure that we stress here. Maybe you can just talk 
a little bit about the jointness out there, what is coming 
because I don't know if you mentioned that in your testimony.
    The Navy's building there now----
    Mr. Murphy. The Navy is about to break ground. A new 
facility, they are going to invest about $14 million. That was 
also meant to share cost with the 911 base and reduce their 
cost.
    They also have a joint training facility of a gun range. 
There also is a new commissary being built, the Defense 
Commissary Agency about to spend $17 million on that. A new 
exchange out there as well.
    So all these investments are taking place to the tune of 
close to $100 million.
    Mr. Shuster. And the Marines are considering moving out?
    Mr. Murphy. Marines are considering moving out there too, 
because as the Navy closes their base and Marines are 
considering--a great joint forces training opportunity.
    Mr. Shuster. And not only is this jointness which we should 
be promoting, but also the Department of Defense needs to 
realize that they are not doing these in a vacuum, they are 
part of the U.S. Government and there are other agencies, the 
U.S. Marshals, if I am not mistaken; they are looking at moving 
back there.
    It is going to save us tremendous amount of money by taking 
other government agencies, locating on a secure military base, 
where they can do their functions. And save us money by not 
having to secure buildings. Are there other agencies that are 
looking to move there?
    Mr. Murphy. Well, we know the Air Marshals are considering 
it. We also know that the Air Force has not done a cost 
comparison. And this is where your committee can have valuable 
impact.
    They talked about moving these planes and therefore saving 
money. Well those planes are going to be moved anywhere, but to 
compare the Pittsburgh airport where they get four 10,000-foot 
runways, and all these other things for $20,000 a year versus 
other bases where the Air Force has to provide all the cost. It 
is just a ridiculous lack of accounting.
    Mr. Shuster. It says ``bargain'' all over it. And that is 
what we have to be looking for as we are saving money as you 
mention--four 10,000-foot runways, $20,000--they can house 20 
planes there without any----
    Mr. Murphy. My rotary club can do a fundraiser and cover 
that cost.
    Mr. Shuster. Well I thank you gentleman for being here and 
advocating for 911. And I yield back.
    Mr. Murphy. Thank you.
    The Chairman. Thank you very much, and we will certainly 
look into this as we move forward. Thank you.
    We now recognize the gentleman from Arkansas, Mr. Rick 
Crawford, for 5 minutes.

 STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE 
                         FROM ARKANSAS

    Mr. Crawford. Thank you Mr. Chairman.
    Good morning, and thank you Ranking Member Smith. And 
distinguished members of the committee, I thank all of you for 
what you do to preserve the security of our great Nation and 
for allowing me the opportunity to testify to the full 
committee regarding explosive ordnance disposal, or EOD, 
priorities for the fiscal year 2013 National Defense 
Authorization Act.
    As none of the services have a three-star EOD flag officer 
with a legislative affairs staff, it is my honor to represent 
the interests of this critical component of our fighting force 
in their stead. I myself served in the Army as an EOD tech, and 
I am proud to be a co-founder along with committee member Susan 
Davis, who is here today, of the House EOD caucus.
    Explosive ordnance disposal soldiers, sailors, airmen, and 
marines are the military's preeminent team of explosive 
experts. They are trained, equipped, and integrated to attack 
and defeat explosive and associated insurgent networks across 
all operational environments.
    The military's EOD mission [is] to defeat the global 
improvised explosive device [IED]; chemical, biological, 
radiological, nuclear, and high-yield explosives; and weapons 
of mass destruction threats. The EOD tech protects our military 
and innocent civilians from explosive threats, and supports our 
Armed Forces by providing relevant and ready explosive experts 
in full spectrum military operations, joint and interagency 
operations, and national security objectives.
    EOD forces have proven to be game changers in attacking and 
dismantling terrorist cells and associated networks. EOD forces 
will continue to be indispensable assets for the foreseeable 
future supporting counterterrorism operations, building the 
capacity of partner nations, and routinely conducting homeland 
defense missions in support of civil authorities.
    It is vital that we continue to preserve the EOD force 
structure and maintain the EOD technical chain of command, and 
control structure, and full spectrum capabilities to ensure 
success in a wide range of contingencies as directed by the 
Secretary of Defense's strategic guidance on 21st century 
policies, the Quadrennial Defense Review, and as specifically 
emphasized in Homeland Security Presidential Directive 19 
entitled, ``Combating Terrorist Use of Explosives in the United 
States'' and its implementation plan.
    I have concerns with the Administration's budget request 
for military EOD. In the fiscal year 2012 NDAA House report, 
the committee required the Secretary of Defense to submit a 
report on the services EOD force structure planning and the 
consolidated busted--budget justification for EOD programs to 
include research, development, testing, evaluation, operations 
and maintenance and procurement. These reports were due by 
March 1st of this year to the committee and neither of these 
reports were provided by the Secretary.
    Additionally I see a troubling and continuing trend of 
heavy reliance by the services on overseas contingency 
operations [OCO] funding for EOD as evidenced by OCO funding 
levels of 27 percent in fiscal year 2012, 59 percent in fiscal 
year 2011, and 29 percent in fiscal year 2010. Instead of 
including this EOD funding in the OSD [Office of the Secretary 
of Defense] and services baseline budget, I urge that we 
reallocate this OCO funding into the services baseline budget 
for EOD and fiscal year 2013.
    After discussion with fellow EOD caucus members, members of 
your committee, and with EOD warriors during events such as the 
EOD Day on the Hill, I found that funding we envisioned to 
support EOD forces in many instances never made it to them.
    For example, Members of Congress that I talked with 
logically assumed that funding in the amount of approximately 
$100 million was allocated to the Joint IED Defeat 
Organization, or JIEDDO, to specifically support rapid 
solutions for EOD forces. It was not. In fact, the Office of 
the Secretary of Defense program that actually supports this 
effort is the EOD/Low-Intensity Conflict program, which is 
inadequately funded at a level of only $8 million for its 
fiscal year 2013.
    Appropriately, funding EOD-specific programs at levels 
commensurate with the dangers faced by EOD forces will save 
lives and allow these brave men and women to continue to combat 
the threat of IEDs. I look forward to working with the 
committee in the near future to craft legislation that supports 
the critical joint explosives ordnance disposal forces in their 
mission to defend the homeland and our interests abroad. I 
remain available to the committee for further assistance on EOD 
matters and I thank you for your consideration.
    [The prepared statement of Mr. Crawford can be found in the 
Appendix on page 98.]
    The Chairman. Thank the gentleman for his comments. And we 
will certainly take those into account as we continue to draft 
the bill.
    Any other questions?
    We will now recognize the gentleman from Ohio, Mr. Steven 
Stivers, for 5 minutes.

  STATEMENT OF HON. STEVE STIVERS, A REPRESENTATIVE FROM OHIO

    Mr. Stivers. Thank you Mr. Chairman.
    I want to thank Chairman McKeon and Ranking Member Smith 
for allowing Members who are not on the committee to testify on 
the 2013 National Defense Authorization Act.
    I am testifying today about a bill that I am sponsoring, 
H.R. 4341, the TRICARE for Kids Act. But first I want to thank 
my co-sponsors, Representative Bobby Schilling and 
Representative Susan Davis, for working with me on this really 
important legislation that will be supportive of our military 
families.
    Mr. Chairman, the goal of this bipartisan legislation is to 
help the Department of Defense shape its policies and practices 
of the TRICARE benefits to account for the specific health care 
needs of children.
    My TRICARE for Kids legislation brings together experts 
representing the military, children's health, military 
families, and it places them in a working group convened by the 
Department of Defense.
    The TRICARE for Kids working group would be tasked with 
analyzing TRICARE policies, practices and resources that 
involved children's health care.
    The TRICARE for Kids bill was drafted under the guidance of 
the Congressional Budget Office [CBO] and is estimated to have 
no impact on direct spending or revenues. And the CBO estimated 
it will have minimal cost and it requires no offset.
    The bottom line is that this legislation can help the 
Department of Defense as it works to support our military 
families and address the health needs of children covered by 
TRICARE.
    I urge my colleague to consider supporting this important 
legislation by including it in the 2013 National Defense 
Authorization Act. Again, I appreciate the ability to testify 
today before you and look forward to working with you to try to 
get this bill enacted.
    Thank you very much.
    [The prepared statement of Mr. Stivers can be found in the 
Appendix on page 126.]
    The Chairman. Thank you. And thank you for your 
thoughtfulness on this, and we will look at this as we go 
through the process.
    Mrs. Davis?
    Thank you.
    Mr. Stivers. Thank you, Mr. Chairman, and thank you, 
Ranking Member.
    The Chairman. We now recognize the gentleman from 
California, Mr. Mike Honda, for 5 minutes.

   STATEMENT OF HON. MICHAEL M. HONDA, A REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Honda. Good morning. And I want to thank Chairman 
McKeon, Ranking Member Smith, and my colleague also, Mrs. 
Davis, and Mr. Coffman for being here and taking our testimony. 
The--and allowing me to testify in support of my priority for 
the fiscal year 2013 National Defense Authorization Act, which 
means the hazing and harassment prevention in the U.S. 
military.
    From recent tragic cases such as Lance Corporal Harry Lew 
and Private Danny Chen, I believe that the U.S. military has 
fallen into a culture that is blind to the damages that hazing 
and harassment cause to our own service members. Their tragic 
deaths are urgent calls to action.
    The crucial issue of hazing and harassment in the military 
must be addressed immediately and the culture that tolerates 
them must be reversed.
    The brave men and women of our armed services must be able 
to serve within a system that guarantees their protection and 
ensures their family's trust in their superiors.
    I am grateful to the Subcommittee on Military Personnel for 
recognizing the important need to address hazing in the 
military by recently holding a hearing regarding this concern.
    As an invited Member, I was glad to hear the witnesses 
representing each service denounce hazing and harassment and 
give broad overviews of the services' preventative safeguards.
    Yet these safeguards apparently are not adequate. And 
hazing and harassment occurs, as evident by the recent 
incidents of Private Danny Chen and Lance Corporal Harry Lew.
    In fact, Secretary Panetta issued an anti-hazing directive 
during his holiday message in December. What I found extremely 
troubling from the testimony is the lack of actual statistics 
on hazing and harassment.
    How can anyone be convinced that a problem does not exist 
or current prevention policies are working if there is no 
method of monitoring or evaluating it?
    Furthermore, a definition of hazing and harassment is 
either lacking or inconsistent within the services.
    For these reasons, many of my colleagues and I are 
convinced substantial efforts are needed to eradicate hazing 
and harassment in the military.
    In a letter to the committee dated April 3, 2012, the Tri-
Caucus requested your committee's consideration of the 
following: statutory definition of hazing in the Uniform Code 
of Military Justice; a Government Accountability Office study 
on each of the services' hazing prevention policies, and the 
prevalence and consequences of hazing over the last 5 years; a 
national hazing database that tracks incidents of hazing and an 
annual report to Congress on the military's progress in 
responding to hazing.
    I know from meeting with Harry Lew's parents, my 
constituents, how much it meant to Harry to serve his nation in 
uniform. We must act now to ensure that the Department of 
Defense has effective and continuous training for all ranks, 
proper oversight by and access to leadership, including 
expectation of responsibility at the lowest level of command to 
the highest and stricter enforcement policies to guarantee that 
our service members, no matter their background, are able to 
safely and honorably defend the citizens and the Constitution 
of the United States.
    And I want to thank you again for your consideration of our 
requests.
    [The prepared statement of Mr. Honda can be found in the 
Appendix on page 55.]
    The Chairman. Thank you very much.
    Any questions? Comments?
    Mr. Honda. Thank you, Mr. Chairman.
    The Chairman. We will look at your comments very closely as 
we go through the writing of the bill.
    Mr. Honda. I appreciate it very much.
    The Chairman. Thank you very much.
    And now, without objection, I would like to request that 
the written testimony of those Members that have spoken and 
additional Members who could not be here today be entered into 
the record.
    [The information referred to can be found in the Appendix 
beginning on page 41.]
    The Chairman. Without objection; so ordered.
    This hearing stands adjourned.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 17, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2012

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 17, 2012

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
